                                                May 19, 1999

MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman (Signed)
               Inspector General

SUBJECT:       INFORMATION: Audit Report on "The U.S. Department of Energy's Large-Scale
               Demonstration and Deployment Projects"


BACKGROUND

The Department of Energy has about 7,000 surplus buildings that will eventually require deactivation and
decommissioning (D&D). The estimated cost of D&D for the Department's surplus facilities is over $11
billion with an additional $20 billion to stabilize, deactivate and decommission facilities which are currently
active. The Office of Environmental Management is responsible for assuring that adequate technologies
are available to address these D&D needs. Through the development and widespread deployment of new
technologies, the Department has established a goal of reducing D&D costs by approximately $1 billion by
2006.

Environmental Management uses Large-Scale Demonstration and Deployment Projects to identify and
promote deployment of improved technologies throughout the Department. These projects are intended to
provide an opportunity to compare the cost and performance of new or improved technologies against
established technologies. To date, the projects have demonstrated many technologies which offer cost and
performance improvements over established technologies. Environmental Management uses a concept of
Integrating Contractor Teams to manage each project. The objective of our audit was to determine if
opportunities exist to increase D&D technology deployments within the Department and to reduce the cost
of managing technology demonstration projects.

RESULTS OF AUDIT

The Department was not successful in deploying newly demonstrated technologies throughout its facilities.
In Fiscal Year 1998, only 10 of 46 deployments were to Departmental sites that did not participate in the
original demonstration. While several factors may have affected the rate of deployment of the new
technologies, we noted that deployments to other Departmental sites did not occur because technology
end-users from these sites were not usually members of the team managing the demonstrations.

We also found that the Department did not control management costs of the demonstrations. The cost of
the Integrating Contractor Teams, which manage, administer and provide technical support for the
demonstrations, represent a large percentage of the total funds available to demonstrate technologies. In
one project, for example, these costs represented 74 percent of the $5.5 million in total costs. Additional
administrative costs also were incurred because of repetitive procurements for contractor services.
Environmental Management had not identified or collected specific cost information that would allow
consistent analysis and control of these costs.
                                                   -2-

MANAGEMENT REACTION

The Acting Assistant Secretary for Science and Technology, Office of Environmental Management
expressed general agreement with the findings and recommendations in a draft of this report. Environmental
Management agreed to expand Integrated Contractor Team membership to include Federal and end-user
contractor personnel. Management has begun corrective actions to expedite publication of demonstration
results and establish project cost collection and reporting requirements. Management has also agreed to
pursue centralized procurement for contractor teams.

cc: Deputy Secretary
    Under Secretary
DOE/OIG-0444




        AUDIT
       REPORT

                                              THE
                                  U.S. DEPARTMENT OF ENERGY'S
                                LARGE-SCALE DEMONSTRATION AND
                                      DEPLOYMENT PROJECTS




                                                MAY 1999




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
The U.S. Department Of Energy's Large-Scale Demonstration And
Deployment Projects

TABLE OF
CONTENTS

                  Overview

                  Introduction And Objective .................................................................1

                  Conclusions And Observations ........................................................... 2


                  Opportunities For Technology Deployments

                  Details Of Finding ..............................................................................4

                  Recommendations And Comments ......................................................7


                  Opportunities For Project Management Cost Reductions

                  Details Of Finding ..............................................................................9

                  Recommendations And Comments ....................................................10


                  Appendices

                  1. Scope And Methodology.............................................................12

                  2. Other Matters..............................................................................14

                  3. Past Audits............................................................................ 15
Overview

INTRODUCTION AND   The Department of Energy's Office of Environmental Management
OBJECTIVE          (EM) is responsible for deactivating and decommissioning (D&D)
                   about 7,000 surplus buildings. Approximately 13,000 of the
                   Department's currently active buildings may also require D&D activity.
                   The estimated cost to D&D surplus facilities is over $11 billion, and an
                   additional $20 billion will be needed to stabilize and D&D currently
                   active facilities.

                   EM's Office of Science and Technology, Deactivation and
                   Decommissioning Focus Area, is responsible for assuring that adequate
                   technologies are available to address these D&D needs. For purposes
                   of clarity, we are using the term “Focus Area” throughout this report
                   to refer to this EM component responsible for acquiring and deploying
                   new technologies for D&D work. The goal of the Focus Area is to
                   deploy better technologies to reduce the Department's cost of D&D
                   activities by $5 billion over the life of the environmental cleanup of the
                   current surplus buildings. About $1 billion of these savings are
                   expected to be realized by 2006. The Focus Area uses Large-Scale
                   Demonstration and Deployment Projects (Large-Scale Projects) as the
                   cornerstone for achieving this goal by identifying and promoting
                   deployment of new and improved technologies to reduce the cost of
                   the cleanup. The Large-Scale Projects are intended to provide an
                   opportunity to compare the cost and performance of new and
                   improved technologies against baseline, or established, technologies.

                   The projects began in July 1995 when the Federal Energy Technology
                   Center, which leads the Focus Area, requested proposals from field
                   sites for demonstrations. Proposed projects were evaluated by the
                   following criteria: significance of the proposed demonstrations
                   (especially for cost reductions in future projects), readiness of the
                   proposed technology to be demonstrated, commitment of the site to
                   the demonstration, and project management. The sites selected for
                   demonstration had to have facilities that had an ongoing D&D project
                   so that new technologies could be compared side-by-side with a
                   baseline technology for cost and performance. In October 1995, the
                   Focus Area selected three sites to host demonstration projects: Plant 1
                   at the Fernald Environmental Management Project in Ohio, the CP-5
                   Reactor at Argonne National Laboratory in Illinois, and the C-Reactor
                   at the Hanford Site in Washington.

                   The Focus Area uses a concept of Integrating Contractor Teams to




Page 1                                                        Introduction And Objective
                  manage the Large-Scale Projects. For the most part, these teams are
                  composed of commercial D&D technology companies which are
                  responsible for screening and selecting technologies and the day-to-day
                  management of the demonstrations. The cost and performance data
                  that results from each demonstration is published in Innovative
                  Technology Summary Reports as a way of encouraging other sites to
                  adopt the new technologies.

                  As of January 1999, the Focus Area had completed three
                  demonstration projects and was in the process of implementing four
                  new projects. The Focus Area had expended approximately $16.5
                  million on the three completed Large-Scale Projects and expected to
                  spend another $12 million on four new projects. According to Focus
                  Area management, the three completed Large-Scale Projects had
                  resulted in 46 technology deployments in Fiscal Year 1998.

                  The objective of our audit was to determine if opportunities existed to
                  increase D&D technology deployments within the Department and to
                  reduce the cost of managing technology demonstration projects.


                  Although the Department had demonstrated many technologies it
                  believed to be promising, it was not successful in deploying these
                  technologies throughout its facilities. The majority of technology
CONCLUSIONS AND
                  deployments in Fiscal Year 1998 were either to non-Departmental sites
OBSERVATIONS      or to sites where the technology was originally demonstrated. Only 10
                  of the 46 technology deployments in Fiscal Year 1998 were to
                  Departmental sites that did not originally demonstrate the technology.
                  Field site personnel and D&D site contractors indicated that new
                  technology deployments depend mostly upon first hand knowledge of
                  the technology. However, the project Integrating Contracting Team
                  members, with one exception, did not include D&D project managers
                  from other Departmental sites. As a consequence, the benefits of new
                  or improved technologies were not readily transferred to these sites.

                  In addition, the Department did not control management costs of the
                  demonstrations. The cost of the Integrating Contractor Teams, which
                  manage, administer and provide technical support for the
                  demonstrations, represents a large percentage of the total funds
                  available to demonstrate technologies. In one project, these costs
                  represented 74 percent of the $5.5 million in total costs. The Focus
                  Area did not identify or collect specific cost information that would
                  allow consistent analysis and control of these costs. Additional
                  administrative costs were incurred by the Focus Area because of
Page 2                                                 Conclusions And Observations
         repetitive procurements for contractor services.

         The Focus Area may not achieve its goal of $1 billion in cost savings
         by 2006 unless it ensures that Department site managers and
         contractors, who could benefit from demonstrated technologies, are
         part of the teams managing the Large-Scale Projects. In addition, the
         administrative and management costs of the Integrating Contractor
         Team appeared to represent an unreasonably large proportion of
         project costs. The Focus Area needs to implement better mechanisms
         to identify and control these costs.

         In accordance with its 1997 Strategic Plan, the Department is to
         develop and deploy innovative environmental cleanup technologies that
         reduce costs, resolve currently intractable problems, and/or are more
         protective of workers and the environment. Because the Large-Scale
         Projects are the cornerstone of the Department's efforts to demonstrate
         and deploy new D&D technologies that reduce the cost of the cleanup,
         it is necessary that the Department make changes to enhance the
         program in order to meet Strategic Plan objectives.

         The Office of Inspector General had previously performed reviews of
         the Department's efforts to manage and integrate technology research
         and development projects. In a report on Management of Research
         and Development Integration (DOE/IG-0417), we concluded that the
         Department did not have a system in place to ensure projects were
         jointly planned, budgeted, and managed. Detailed discussions of this
         and other related audit reports are included in Appendix 3.

         The issues discussed in this report should be considered by
         management when preparing the yearend assurance memorandum on
         internal controls.


                                       _______(Signed)_____________
                                       Office of Inspector General




Page 3                                        Conclusions And Observations
Opportunities For Technology Deployments

Technology Deployment   Demonstrated technologies were not widely deployed across the
Strategy                Department. The majority of technology deployments in Fiscal Year
                        1998 that resulted from the three completed projects were either to
                        non-Departmental sites or to sites where the technology was originally
                        demonstrated. Only 10 of the 46 technology deployments were to
                        Departmental sites that did not originally demonstrate the technology.
                        Nine of the deployments were to non-Departmental sites. The
                        remaining 27 deployments were at the sites that originally
                        demonstrated the technology.

                        There are a large number of current and planned D&D projects within
                        the Department which are dependent on the technologies being
                        demonstrated in the Large-Scale Projects. For example, facilities at
                        seven separate field sites were identified as potential markets for a
                        certain successfully demonstrated technology. However, none of these
                        sites participated on the project's Integrating Contractor Team and
                        only one had adopted the technology.

                        The National Research Council had similar findings in its review of
                        Focus Area activities prior to Fiscal Year 1998. The Council found
                        that Large-Scale Projects were not achieving the goal of widespread
                        deployment of new technologies and the Focus Area had no systematic
                        plan that would encourage the deployment of these technologies.


                        Large-Scale Projects are the tools used by the Department to achieve
                        user acceptance of new D&D technologies. According to its Fiscal
Deployment Objective    Year 1999 Multi-Year Program Plan, widespread deployment across
                        the Department complex of improved and innovative technologies is
                        the ultimate measure of success for the Focus Area.

                        Additionally, the Focus Area issued its Large-Scale Demonstration
                        Program Implementation Guide in October 1997. This guide
                        established a program goal to include multiple commercial D&D
                        companies on the Integrating Contractor Team, defined the roles and
                        responsibilities of the Integrating Contractor Team members, and
                        established a method to communicate demonstration results.
                        Specifically, the Focus Area relied on Integrating Contractor Team
                        members and the Innovative Technology Summary Reports to
                        disseminate information about the results of Large-Scale Projects.
                        Technology deployment was hindered because Departmental guidance
                        did not require Integrating Contractor Teams to include a broad base


Page 4                                                                    Details Of Finding
Improving Deployment   of Department technology end-users and the timely publication of the
                       Innovative Technology Summary Reports. Generally, Integrating
                       Contractor Teams did not include D&D project managers from
                       Department sites, other than the demonstration site, who could benefit
                       from the demonstrated technologies. Rather, the Integrating
                       Contractor Teams were composed of demonstration site contractors,
                       commercial D&D firms, and others who did not have cleanup
                       responsibilities at other Department locations. This composition
                       occurred because the Focus Area determined that commercial D&D
                       firms would use their first-hand knowledge from the demonstrations to
                       compete for other Departmental site D&D work.

                       For the seven Large-Scale Projects, the Integrating Contractor Team
                       membership consisted of 39 organizations. As illustrated in the
                       following chart, 7 Department managers and 8 participants from major
                       Department contractors participated on the teams. Except for one of
                       those individuals, however, none of the Integrating Contractor Team
                       members represented a Department site that could benefit from the
                       demonstrated technologies other than the demonstration site.


                                               INTEGRATING CONTRACTOR TEAM MEMBERS



                                                                  Regulators (2)
                                               Universities (2)                    DOE Management
                                        Technology                                       (7)
                                        Brokers (4)

                                     Technology
                                    Developers (3)
                                                                                             M&O/M&I
                                                                                           Contractor (8)
                                 Nuclear Utilities (2)
                                                           Commercial D&D
                                                            Companies (11)




                       Department field personnel and D&D contractors indicated that their
                       adoption of new technologies depended mostly on first hand
                       knowledge of the technology. They further indicated that the best
                       means of obtaining that experience was through participation on the
                       Integrating Contractor Team. For example, one project manager
                       recommended that Integrating Contractor Team membership be
                       changed (not necessarily expanded) to include more technology end-
                       users. He advised that end-users should include companies,
                       organizations, and individuals involved directly in the field work with
                       D&D activities. The project manager stated this way technology end-
                       users are more likely to recognize a technology "winner” and be in a
                       position to quickly deploy the technology. In addition, he believed it


Page 5                                                                                   Details Of Finding
                 was important that information on the results of a technology
                 demonstration be disseminated as soon as possible.

                 In its 1998 report, the National Research Council reached similar
                 conclusions. The Council found that the Focus Area needed to
                 improve its approach to introducing and gaining acceptance of
                 demonstrated technologies. It concluded that new technologies must
                 be “pulled” by the Department site cleanup project managers with the
                 problem. They cannot be “pushed” by the technology suppliers.

                 The Focus Area was also not able to ensure timely communication of
                 technology demonstration results to end-users across the Department.
                 The Focus Area's primary communication tool was the Innovative
                 Technology Summary Reports. The Summary Reports contained
                 comprehensive cost and performance data from the side-by-side
                 demonstrations of individual technologies. However, there were
                 delays in publishing these reports. In fact, during Fiscal Year 1998,
                 only 12 of 46 Summary Reports submitted to Headquarters were
                 published by the Office of Science and Technology.

                 Focus Area management agreed to explore adding Departmental site
                 contractors to the Integrating Contractor Teams. Management
                 believed participation of other site contractors as team members must
                 be balanced with commercial D&D firms to keep team size to a
                 manageable level of four to six organizations.


                 Unless the Focus Area ensures deployment of new and improved
                 technologies, the Large-Scale Projects are unlikely to be effective tools
                 in reducing D&D costs. The Focus Area is responsible for assuring
Realization Of   that adequate technologies are available to address the Department's
Project Goals    need for improved methods to reduce the cost of the cold war legacy
                 of environmental contamination. Its specific goal is to deploy these
                 better technologies to reduce projected D&D costs by $1 billion by
                 2006. This goal can only be realized if technology end-users adopt
                 new and improved technologies demonstrated through the Large-Scale
                 Projects.

                 We recommended that the Acting Assistant Secretary for
                 Environmental Management improve program implementation
                 guidance for the Large-Scale Demonstration and Deployment Projects




Page 6                                                               Details Of Finding
RECOMMENDATIONS   by:

                         1. Stipulating that Department D&D managers and
                            contractors from sites that have been identified as potential
                            candidates for using demonstrated technologies be included
                            in the Integrating Contractor Team functions related to
                            selecting, screening, evaluating, and demonstrating
                            technologies, and

                         2. Requiring the timely publication of the Innovative
                            Technology Summary Reports.


                  Environmental Management's Office for Science and Technology
                  reviewed our report and generally agreed with this finding and
                  recommendations. In its response, management stated that the
                  Department concurs with the first recommendation and agrees to
MANAGEMENT
                  expand the membership of the Integrated Contractor Team to include
REACTION          Federal and end user contractor employees to assist technology
                  transfers to other sites with similar D&D problems. Management's
                  response also stated that we reported only 10 of 46 deployments in
                  Fiscal Year 1998 were to sites beyond the demonstration site. They
                  pointed out that 50 percent of the deployments occurred at the
                  demonstration site and 50 percent occurred at non-demonstration sites.

                  Management agreed with the second recommendation and stated that
                  they have "already taken corrective action to ensure that future ITSRs
                  (Summary Reports) will be available for review within three months
                  following completion of the technology demonstration and available
                  for publication within four months following demonstration." This
                  action is documented in the Fiscal Year 1999 Program Execution
                  Guidance from the Focus Area to each Integrated Contractor Team.

                  Management's comments regarding the percentage of deployments
                  during Fiscal Year 1998, however, did not fully address the
                  performance of the program. Management included non-Departmental
                  sites such as public utilities in its assessment of non-demonstration site
AUDITOR           deployments. While the adoption of Department-
COMMENTS          generated new technologies by the private sector is a positive and
                  encouraging step, the primary measure of success of the program is
                  the level of deployment of improved and innovative technologies at
                  Departmental sites. Thus, we concluded that the inclusion of data on


Page 7                                             Recommendations And Comments
         non-Departmental deployments tends to skew a realistic view of the
         performance of the program.

         Management's comments are otherwise responsive. The proposed
         actions, if properly implemented, will improve the deployment of new
         and improved D&D technologies to other Departmental sites with
         similar problems and provide for timely publication of the Summary
         Reports.




Page 8                                  Recommendations And Comments
Opportunities For Project Management Cost Reductions

Project Cost           The Focus Area did not control the costs of the Integrating Contractor
Controls               Teams that manage, administer, and provide technical support to the
                       demonstrations. Specifically, the drivers of management,
                       administration, and technical support costs of the Integrating
                       Contractor Teams had not been identified even though such costs
                       represented a large percentage of the total cost of demonstrations. On
                       one $5.5 million project, for example, only about 10 percent
                       ($520,000) of total costs represented payments to the technology
                       subcontractor responsible for the demonstration. Seventy-four percent
                       ($4 million) was spent for individual team member costs but the factors
                       that drive overhead costs such as management, administration and
                       support costs of the Integrating Contractor Team could not be
                       separately identified by project management. The remaining $1 million
                       was spent by project management on infrastructure items such as
                       building upgrades.

                       Costs of the demonstrations were also increased because project
                       management allowed repetitive procurements for similar contractor
                       services on the Integrating Contractor Teams. Each operations and
                       field office that participated in the Large-Scale Projects acquired
                       services from commercial D&D companies. Often, these companies
                       participated in one or more of the seven demonstration projects.
                       Separate procurements were used each time a company participated in
                       a demonstration project even though the services provided by the
                       company were essentially the same. For the seven projects that have
                       been completed or are ongoing, six contractors participated as team
                       members more than once. In total, 17 separate procurements were
                       used to acquire services from the six contractors.


Performance Measures   The Large-Scale Project Implementation Guide established
                       performance measures for conducting each project. General areas
                       covered by the measures included the percentage of project funding
                       provided to technology vendors and funding percentages for project
                       management activities. These measures were intended to influence the
                       Integrating Contractor Team to focus resources on technology
                       demonstrations and not project management. The guide also states
                       that a substantial portion of the project funding be used for actual
                       technology demonstrations and costs for project overhead functions
                       such as planning, monitoring, and data collection and analysis need to
                       be kept to a minimum to maximize the number and scope of
                       technology demonstrations.


Page 9                                                                   Details Of Finding
Project Cost      While the guidance stipulated that project managers minimize project
Controls Needed   overhead costs, it did not establish specific targets. Further, the
                  guide did not contain any requirements regarding the identification
                  and collection of cost elements for project management,
                  administration, and support costs of the Integrating Contractor
                  Teams. Also, the guidance did not address the issue of repetitive
                  contractor procurements.

                  Focus Area management agreed that more detailed cost collection
                  would enable them to be more aware of expenditures on specific
                  Large-Scale Project activities and make any necessary adjustments.
                  In December 1998, a request was issued to managers of ongoing
                  projects for additional Integrating Contractor Team cost information
                  and the Focus Area intends to request more detailed cost information
                  to be reported beginning in February 1999. They also agreed that
                  using repetitive contractors on the Integrating Contractor Team
                  provides needed continuity between projects and will pursue
                  centralizing team procurements.


Project Costs     The importance of cost information is recognized by government
Reductions        standards that require Federal managers to accumulate, analyze, and
                  report project cost information. Without implementation of cost
                  determination practices that assist project managers to evaluate
                  where cost controls improvements are needed, demonstrations of
                  potentially successful technologies may be severely limited. Focus
                  Area management cannot be assured that projects are being managed
                  in a cost-effective manner unless actions are taken to identify and
                  control management, administrative, and support costs of the
                  Integrating Contractor Teams.


RECOMMENDATIONS   We recommend that the Acting Assistant Secretary for
                  Environmental Management improve program implementation
                  guidance for the Large-Scale Demonstration and Deployment
                  Projects by:

                         1. Requiring that managerial cost information is consistently
                            collected and analyzed for current and future projects to
                            ensure that management, administrative, and support
                            costs do not represent an undue proportion of available
                            funds; and


Page 10                                         Recommendations And Comments
                    2. Directing the D&D Focus Area Manager to centralize
                       procurement for contractor services on the Large-Scale
                       Demonstration and Deployment Project Integrating
                       Contractor.

MANAGEMENT   Management agreed with the first recommendation and has taken
REACTION     corrective action. In February 1999, the Focus Area issued guidance
             to the four current project Integrated Contractor Teams specifying that
             cost information must be collected and reported quarterly. Costs will
             be reported for project management, technology search and screening,
             technology demonstration, technology vendors, communications, and
             miscellaneous costs. The Large-Scale Project Implementation Guide
             will be revised to reflect this cost reporting change.

             For the second recommendation, management agreed to pursue the
             possibility of centralized contracting for Integrated Contractor Teams
             through the Department's Federal Energy Technology Center. The
             Focus Area will consider executing a solicitation to assemble a team of
             qualified companies to serve on future Large-Scale Project teams.
             Management stated that the cost and efficiency of a centralized
             procurement approach will be compared with that of individual
             procurements. Since the Large-Scale Projects are carefully integrated
             into an ongoing site D&D project, care will be taken in considering a
             central approach to ensure that the site D&D project is not adversely
             affected.


AUDITOR      Management's comments are generally responsive to the
COMMENTS     recommendations. The new cost identification, collection, and
             reporting requirements should assist project managers to evaluate and
             implement cost control improvements and minimize project overhead
             costs. Management's consideration of centralized contracting for team
             members should give significant weight to potential administrative cost
             savings from such contracting. Although we agree that a site D&D
             project should not be adversely affected by this contracting method,
             repetitive procurements for the same contractors for similar services is
             not cost effective. To the extent that specialized services are required
             by individual projects, Operations Office contractor selections for
             Integrated Contractor Team members could be used to meet these
             particular needs. Specific action is needed by the Focus Area to
             initiate efforts for revising project contracting methods and reducing
             the overall management and administrative costs of future Large-Scale
             Projects.
             The audit was performed at
Page 11                                          Recommendations And Comments
Appendix 1
              Department Headquarters in Washington, DC; Germantown, MD;
SCOPE
              Richland Operations Office, WA, Fernald and Mound Field Offices,
              OH; Los Alamos National Laboratory, NM, and the Federal Energy
              Technology Center at Morgantown, WV, from August 1998 to January
              1999.


METHODOLOGY   To accomplish the audit objective, we:

                     • Reviewed the Office of Science and Technology's
                       Deactivation and Decommissioning Focus Area program
                       goals and objectives;

                     • Reviewed the October 1997 and September 1998 Large-
                       Scale Demonstration and Deployment Project
                       Implementation Guides;

                     • Held discussions with personnel from the Headquarters
                       Office of Science and Technology, Deactivation and
                       Decommissioning Focus Area Program Office, Departmental
                       Large-Scale Project field site offices, Integrating Contractor
                       Teams and technology demonstration technicians;

                     • Examined program office documentation including the 1998
                       and 1999 Multi-Year Program Plans, 1999 Annual
                       Performance Plan, 1997 and 1998 Focus Area Annual
                       Reports, and Lessons Learned Reports prepared to
                       described the past and proposed efforts of the program;

                    • Evaluated the efforts of the Office of Technology Systems
                      and the Deactivation and Decommissioning Program Office
                      to develop, improve, and facilitate implementation of the
                      Large-Scale Demonstration and Deployment Projects and
                      ensure deployment of successful technologies within the
                      Department's complex; and,

                     • Evaluated management and procurement methods used to
                       establish Integrating Contractor Teams for both completed
                       and new start Large-Scale Demonstration and Deployment
                       Projects.

              The audit was conducted in accordance with generally accepted



Page 12                                                  Scope And Methodology
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the audit objective. Because our review
          was limited, it would not necessarily have disclosed all internal control
          deficiencies that may have existed at the time of our audit. We did not
          conduct a reliability assessment of computer-based data because no
          such data was used during the audit.

          Management waived an exit conference on this audit effort.




Page 13                                                Scope And Methodology
Appendix 2

OTHER        The management practices used by EM's Focus Area in one of the
MATTERS      completed Large-Scale Projects potentially could have limited the
             dissemination of technology information. Specifically, a Strategic
             Alliance composed of technology and utility companies to function as
             the Integrating Contractor Team for the project was formed for the
             demonstrations at the Argonne National Laboratory. This approach
             led to uncertainty regarding the proprietary rights to certain
             information generated by the Department funded project. The
             Alliance considered information it generated in screening and
             evaluating technologies to be proprietary information, making it
             unavailable to other Departmental sites. Resolution of this issue was
             especially important to the Focus Area because widespread
             dissemination of technology information is critical to the project's
             deployment and cost containment goals. According to the Focus
             Area management, proprietary information issue has been resolved at
             the specific project and they are evaluating alternative management
             structures for new projects which will prevent a recurrence of the
             problem.

             Additionally, the Focus Area allowed the Strategic Alliance to acquire
             and pay for insurance with Federal financial assistance funds. Such
             costs are not normally paid for by financial assistance agreements, and
             increased the administrative cost of the project by $209,000.




Page 14                                                             Other Matters
Appendix 3

             PAST AUDITS RELATING TO RESEARCH AND DEVELOPMENT
                   PROGRAMS AND TECHNOLOGY DEPLOYMENTS


  • The U.S. Department of Energy’s Management of Research and Development Integration, IG
    Report DOE/IG-0417, dated March 1998. Concerns about the fragmentation of the
    Department’s Research and Development (R&D) programs have been a long standing issue.
    Past studies and reviews have found that the Department needs greater integration of its R&D
    programs to more effectively achieve the vital mission in energy R&D. This audit determined
    that R&D program offices were managed independently and there was little effort to coordinate
    the planning and budgeting of research across program lines in order to integrate research
    activities. This problem occurred because the Department had not clearly established
    organizational responsibility or authority for integrating research across programs. The lack of
    a system for integration prevents the establishment of a baseline for performance measures. The
    Department agreed with the audit finding and stated that individual programs at the Department
    need to do a better job of integrating their research programs.

  • The U.S. Department of Energy’s Participation in the Partnership for a New Generation of
    Vehicles Program, IG Report DOE/IG-0422, dated July 1998. The Partnership for a New
    Generation of Vehicles (PNGV) was a partnership of seven Government agencies and three
    major car manufacturers. The Government funding was to be applied primarily to developing
    technologies that involve high risk with the Department providing most of the federal funding to
    the program. The audit determined it was unlikely that some research projects pursued by the
    Department would be developed in time to meet the PNGV timeframe of 2004. To bring the
    Department’s promising but long-term research into alignment with PNGV goals, it was
    recommended that the Department modify its Strategic Plan to explicitly address the PNGV
    program. The Annual Performance Report should also address the barriers to meeting the 2004
    timeframe.

  • Energy Management: Technology Development Program Taking Action to Address Problems,
    GAO Report RCED-96-184, dated July 9, 1996. Since 1989, the Office of Environmental
    Management has spent $34 billion on cleanups, but schedules have slipped and progress has
    been slow. According to Office estimates, innovative cleanup technologies could reduce total
    cleanup costs by as much as $80 billion. The Office began a major reorganization in 1995 to
    improve the coordination and management of the technology development program by creating
    five "Focus Areas." Yet concerns persisted that management weaknesses were undermining
    progress in environmental cleanup. This report discusses whether the Office was managing its
    technology development program to prevent (1) unnecessary duplication and overlap and (2) an
    unwarranted concentration of projects at some field offices.

  • Nuclear Waste: Further Actions Needed to Increase the Use of Innovative Cleanup



Page 15                                                                                    Past Audits
    Technologies, GAO Report RCED-98-249, dated September 25, 1998. The Department is
    developing technologies that could reduce cleanup costs, speed cleanups, provide methods for
    cleanups for which no cost-effective technologies now exist, and reduce risks for cleanup
    workers and the public. However, earlier reports by GAO and others have cited obstacles to
    selecting and using innovative technologies at Department sites. Because of concerns about the
    benefits returned from the $2.5 billion invested in Department's Office of Science and
    Technology since 1989, this report reviews the Department's efforts to deploy innovative
    technologies for each of the five Focus Areas, including the D&D Focus Area. GAO discusses
    (1) the extent to which innovative technologies developed by the Office of Science and
    Technology have been used at Department sites and how this rate of deployment compares with
    the rates of other government organizations that develop innovative technologies; (2) the
    Department's progress in overcoming obstacles o deploying innovative technologies at its
    cleanup sites; and (3) Departmental efforts to increase the deployment of innovative
    technologies.




Page 16                                                                                    Past Audits
                                                                       IG Report No. DOE/OIG-0444

                                CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and,
therefore, ask that you consider sharing your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future reports. Please include answers to the
following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of
   the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in
   this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed
   in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                  Office of Inspector General (IG-1)
                                        Department of Energy
                                       Washington, DC 20585

                                     ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
         electronically through the Internet at the following alternative addresses:


       U.S. Department of Energy Management and Administration Home Page
                             http://www.hr.doe.gov/ig
                                        or
                              http://www.ma.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.


                          This report can be obtained from the
                              U.S. Department of Energy
                     Office of Scientific and Technical Information
                                      P.O. Box 62
                             Oak Ridge, Tennessee 37831
